   AUDIT OF CONTROLS OVER THE
REPORTING OF OPERATIONAL ERRORS
      Federal Aviation Administration


       Report Number AV-2004-085
          September 20, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   ACTION: Report on Controls Over the                         Date:    September 20, 2004
           Reporting of Operational Errors
           Federal Aviation Administration
           AV-2004-085
                                                                    Reply to
  From:    Alexis M. Stefani                                         Attn of:   JA-10
           Principal Assistant Inspector General
            for Audit and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) process for reporting air traffic control operational errors.
           The objective of our review was to determine what assurance FAA has that all
           operational errors are reported accurately. (See Exhibit A for details regarding our
           scope, methodology, and prior audit coverage.) We found that because of
           vulnerabilities in FAA’s reporting process at certain air traffic control facilities,
           operational errors have not been accurately reported. Specifically, at the facilities
           that handle the most air traffic, FAA relies on supervisors and controllers to self-
           report when errors have occurred and does not have a system in place to verify
           that this reporting process is reliable.

           We determined that at facilities where operational errors are self reported,
           22 percent of the errors that occurred in fiscal year (FY) 2003 were initially
           reported by outside parties and were not identified by facility controllers or
           managers. Also, during a recent 2-year period, the Office of Inspector General
           and FAA’s hotline center received as many as 120 hotline complaints concerning
           aircraft that come too close together, or potential operational errors. Further,
           during a current investigation at one air traffic facility, we identified five errors
           that had not been reported by facility personnel or managers. Prior to our review
           the facility had only reported two errors. While the actual extent of underreporting
           is unknown, in our view, these findings show FAA needs to take more aggressive
           steps to ensure that operational errors are more accurately reported.
                                                                                                        2


Operational errors can pose very serious safety risks and are critical indicators of
the safety of the Nation’s air traffic control system. An operational error occurs
when an air traffic controller allows two aircraft to come too close together.
Reducing operational errors is a key performance goal for FAA and, to its credit,
the Agency has made some progress during the first 8 months of FY 2004 in
reducing these incidents. However, FAA must continue its efforts because on
average, three operational errors occur each day and one severe error (those rated
as high risk) occurs every 9 days.1

In FY 2003, FAA established a goal to reduce the number of the two most serious
categories of operational errors by 15 percent, or no more than 563 serious errors a
year by FY 2008. In conjunction with the extension of their collective bargaining
agreement, on December 18, 2003, the National Air Traffic Controllers
Association (NATCA) and FAA agreed to tie a portion of controllers’ salary
increases to national goals for improving safety and capacity. Each year,
controllers will receive a 0.2 percent pay raise if serious operational errors are
reduced by at least 3 percent from the corresponding period of the previous year.
The Administrator has also extended this pay incentive to air traffic control facility
managers and supervisors.

We consider the development of this agreement an important step toward linking
air traffic controllers’ and managers’ pay to performance. However, the
agreement has renewed our concerns that FAA does not have a system that
ensures accurate operational error reporting at all air traffic control facilities.


BACKGROUND
FAA provides air traffic control services at three types of facilities in which
operational errors can occur: en route, terminal radar approach control
(TRACON), and tower facilities. FAA’s 20 en route facilities within the
continental United States provide air traffic control services for flights that are
generally above 10,000 feet and outside the immediate area of airports.
Controllers in TRACON facilities provide air traffic services for aircraft that are
within 5 to 50 miles of an airport. Once aircraft are within 5 miles of an airport,
controllers in tower facilities assume control of the aircraft and guide pilots
through takeoffs, landings, and ground movements. In total, FAA has 504
TRACON and tower facilities.2

1
     FAA has four categories of operational errors: category A, errors rated as high severity; category B,
    errors rated as moderate-uncontrolled, i.e., the controller was unaware the error was about to occur;
    category C, errors rated as moderate-controlled, i.e., the controller was aware the error was about to
    occur but could not take action in time to prevent it; and category D, errors rated as low severity.
2
    Of the 504 facilities, 330 are FAA and contract tower facilities, 155 are combined TRACON/tower
    facilities, and 19 are stand-alone TRACON facilities.
                                                                                                                  3


Operational errors occur when a controller’s actions cause two aircraft to lose the
required minimum separation, or come too close together. For example, a
controller may inadvertently instruct a pilot to descend or turn into the path of
another aircraft. An operational error that occurred at a TRACON when a
controller directed a passenger jet and a business jet into converging courses is
depicted in Figure 1. The aircraft were about 7 seconds from a midair collision
when the pilots’ evasive actions averted an accident. In assessing the severity of
the error, FAA rated this incident at the high end of moderate, scoring 87 out of a
possible 100 points.


               Figure 1. Operational Error at a TRACON

                                         Collision in
                                          less than
                                          7 seconds



                                  Airplanes came within
                                  100 feet vertically and
             Business jet level   4,250 feet horizontally               Passenger jet
               at 4,000 feet                                         climbing to 4,000
                                        (0.7 miles)
                 259 mph                                                    feet
                                                                          311 mph




As shown in Figure 2, from FY 1998 through FY 2003, operational errors
increased 34 percent, from 885 to 1,185. In FY 2003, an average of three
operational errors occurred
each day and one high-                      Figure 2. Operational Errors
severity error (those where                     FY 1998 to FY 2003
an accident was barely           F Y 19 9 8                    885

avoided) occurred every
7 days.                          F Y 19 9 9                        941



                                      FY 2 0 0 0                                                  1, 14 5
This year, FAA has made
some progress in reducing             FY 2 00 1                                                  1, 19 4
operational errors. During
the first 8 months of                 FY 2 0 0 2                                                 1, 0 6 1

FY 2004, operational errors
                                      FY 2 0 0 3                                                 1, 18 5
decreased by 3 percent to
689 from 710 during the                            0   200     400   600    800    1, 0 0 0 1, 2 0 0   1, 4 0 0

same period in FY 2003.                                      Number of Incidents
More significantly, high-
                                                                                                            4


severity errors decreased 19 percent, from 32 to 26. However, numbers of
operational errors are still too high, as three operational errors are still occurring
each day and one high-severity error every 9 days.


RESULTS IN BRIEF
Operational errors are critical indicators of the safety of the National Airspace
System. Accordingly, FAA has set an important performance measure to reduce
operational errors and enhance the safety of the air traffic system. To make
certain this goal is met, FAA needs greater assurance that operational errors are
accurately reported. However, because FAA does not have automated systems or
controls in place to verify accurate reporting at all air traffic control facilities,
operational errors have gone unreported. FAA has established systems to alert
controllers and managers when aircraft get too close together in only 20 of its 524
air traffic control facilities.

At en route facilities (where aircraft fly at higher altitudes and outside the
immediate area of airports), an automated system sounds an alert if a controller
allows two aircraft to violate FAA separation standards. Managers and controllers
can then review radar and voice data for these incidents to verify if an error has
occurred. Conversely, at TRACON and tower facilities, where there are more
aircraft operating in a smaller amount of airspace, there is no automated system to
identify when an operational error occurs. At these facilities, air traffic controllers
are required to notify their supervisor/manager when an operational error occurs.
If supervisors/managers observe the incident, they are required to report it.

En route facilities control only about one-fourth of air traffic operations, yet in
FY 2003, 684 operational errors were reported at the 20 en route facilities
compared to 501 errors at all of FAA’s 504 TRACON and tower facilities
combined.3 Given the fact that en route facilities control far less traffic than
TRACON and tower facilities, it does not seem logical that en route facilities
would have almost 200, or 40 percent, more operational errors.

Further, our review of FAA data showed that 108 of the 501 operational errors
(22 percent) reported by TRACON and tower facilities in FY 2003 were initially
identified as a result of reports from pilots, neighboring air traffic control facilities,
or other outside sources (e.g., hotline complaints, airport personnel, or airline
personnel). In contrast, only 24 of the 684 operational errors (4 percent) reported
by en route facilities were identified by outside sources.


3
    The 501 operational errors include 7 incidents at the Anchorage en route facility, which does not have an
    automated system to identify operational errors.
                                                                                                       5


These statistics show that FAA cannot rely on a system that is based on facility
personnel self-reporting operational errors. FAA needs a procedure that will
provide it greater assurance that substantially all operational errors are being
reported. TRACON and tower facilities have playback systems that air traffic
personnel can use to review radar and voice data and recreate operations that
occurred in the past, but FAA does not use the data in this manner. The
recommendations in this report are designed to address this issue by requiring
TRACONs and towers to use these systems to improve the accuracy of operational
error reporting.

Complaints of Unreported Incidents. We reviewed Hotline complaint data
submitted to the Office of Inspector General and FAA hotline centers4 over a
recent 2-year period. As shown in Table 1, we found that 75 percent of the
complaints were related to incidents at TRACON and tower facilities, where there
is no automated system to identify when operational errors occur.

        Table 1. Incidents Reported to Hotline Complaint Centers
             Complaints by Facility Type                     Number of Complaints
                                                             Over a 2-year Period*
                                                        Year 1          Year 2         Total
            TRACON and Towers                                55           65            120
            En route centers                                 12           10              22
            Unknown                                          12            6              18
              Total                                          79           81            160
          * Year 1: April 24, 2002 through April 30, 2003.
            Year 2: May 1, 2003 through May 3, 2004.


Although FAA has only confirmed that 12 of these complaints were actual
operational errors, the number of complaints and their disposition raises questions
about whether all errors have been reported. FAA could not conduct a full
investigation of a significant number of these complaints because it did not have
sufficient information, or radar and voice data were not available to investigate the
incident.

We reported in December 20005 that adequate documentation was not always
available to confirm whether operational errors occurred because FAA did not

4
    FAA has two hotline centers where complaints can be made. Its Safety Hotline primarily receives
    complaints from the public. FAA’s Administrator’s Hotline receives complaints from FAA employees.
    We requested complaints from these hotline centers that specifically referenced loss of separation or
    operational errors.
5
    OIG Report Number AV-2001-011, “Actions To Reduce Operational Errors and Deviations Have Not
    Been Effective,” December 15, 2000.
                                                                                   6


retain air traffic radar and voice recording tapes past 15 days. We recommended
that FAA extend the retention period to 45 days. FAA indicated that retaining all
air traffic radar and voice recording tapes for 45 days would create a storage
problem. Since that time, FAA has replaced its voice recording system with
digital technology, which can be stored much more efficiently. To FAA’s credit,
on February 19, 2004, it amended its guidance and required facilities to extend
their retention period for radar and voice data to 45 days. This should help FAA
improve its ability to investigate and identify operational errors that are reported
through hotline complaints or third parties.

Improving the identification of operational errors is important because some of the
incidents reported to the hotline centers involve allegations that operational errors
were intentionally covered up. These complaints are the subject of ongoing
reviews. Further, on May 14, 2004, the U.S. Office of Special Counsel notified
the Secretary of Transportation of the need to investigate allegations of unreported
operational errors at a TRACON facility. The Secretary referred this complaint to
our office for investigation. According to the complaint, operational errors
involving aircraft flying dangerously close to one another occurred, on average, at
least once per month at this facility, and many of these incidents were not
reported. Our preliminary investigation determined that:

•   Prior to our investigation, the facility had reported only two operational errors
    during the 6-month period from January 1 through June 24, 2004.

•   During our investigation, we identified five operational errors that had not been
    previously reported by reviewing radar and voice data of operations covering a
    2-month period (May and June 2004).

We are completing our investigation at the TRACON facility to determine why the
errors were not reported. We will be issuing a separate report on the results of the
investigation in the near future.

FAA air traffic safety officials assisted us in our investigation and consider the
non-reporting of operational errors at this facility very serious. In addition, FAA’s
safety evaluations office has placed the facility under a “no-notice review” status
for a 2-year period. This means that evaluations staff can show up at the facility
with no advance notice to evaluate whether the facility is accurately reporting
operational errors.

The Special Counsel’s complaint and the number of complaints of unreported
incidents received by the Office of Inspector General and FAA hotline centers
highlight the need for FAA to take a more proactive approach in ensuring
                                                                                   7


operational error reporting systems at all facilities have the integrity to limit the
occurrence of these allegations.

Potential Alternative to Self-Reporting Systems. FAA officials stated that due
to the complexity of operations at TRACON and tower facilities, it is not feasible
to add alert systems to automatically identify when operational errors have
occurred. However, these facilities do have other systems that could be used to
identify unreported operational errors. Specifically, all TRACON and large tower
facilities have playback systems that air traffic personnel can use to review radar
and voice data and recreate past operations. TRACON and tower air traffic
personnel could periodically review past operations using this radar and voice data
to assess whether operational errors are being accurately reported. For example,
facility personnel could develop sampling methods that would target periods when
operational errors are most likely to occur and review radar and voice data to
determine if unreported operational errors occurred. This review process would
provide FAA with an internal control that would act as a deterrent against
employees who may intentionally cover up operational errors.

However, FAA currently has guidance in place that limits its use of radar playback
tools to identify operational errors. FAA’s guidance, “Air Traffic Quality
Assurance” (FAA Order 7210.56C, dated August 15, 2002) limits FAA from
“arbitrarily” using radar playback tools as a primary source (or triggering event)
for reporting an operational error or initiating an investigation. Playback tools can
be used only after a suspected incident has been reported. Given the importance
of accurately reporting operational errors to measure the safety of the air traffic
system, FAA should rescind the provision that prevents FAA from using playback
tools to periodically review voice and radar data to identify operational errors that
were not previously reported.

To obtain additional assurance that operational errors are accurately reported at
TRACON and tower facilities, FAA should:

•   Rescind provisions in FAA’s Air Traffic Quality Assurance Order 7210.56C
    that prevent FAA from using playback tools to identify operational errors.

•   Establish internal audit procedures that require facility personnel to
    periodically review voice and radar data to assess whether operational errors
    are being fully reported.

•   Require the air traffic evaluation staff to review and test audit records at
    TRACON and tower facilities to ensure these facilities are conducting periodic
    audits of radar and voice data.

Management Comments and OIG Response
                                                                                   8


On September 15, 2004, FAA provided written comments (attached as an
Appendix to this report) to our August 20, 2004 draft report. FAA concurred with
our recommendations, but its proposed actions were not clear or specific on how
or when the Agency would make the necessary changes to address the intent of
our recommendations.

For example, FAA stated that current orders allow use of playback tools to
identify operational errors. However, FAA’s current guidance (FAA Order
7210.56C) places limits on its use of playback tools and prevents FAA from using
these tools to identify operational errors without a triggering event or indication
that an error has already occurred. In our opinion, FAA needs to rescind the order
or otherwise modify it so that it is clear playback tools can be used to conduct
random audits to ensure operational errors are accurately reported.

Further, FAA agreed to implement management controls to enhance existing audit
functions within TRACON and tower facilities. However, there is currently no
requirement that TRACON and tower facilities conduct audits of radar and voice
data to identify unreported operational errors. Therefore, FAA needs to provide
information on how it can enhance procedures that do not currently exist.

FAA must clarify how it plans to implement our recommendations. Also, specific
timeframes are needed to clarify when planned actions will be completed.


FINDING AND RECOMMENDATIONS

En Route Facilities Have a System To Identify When Potential
Operational Errors Occur
FAA has an automated system that identifies when operational errors occur at its
20 en route facilities located in the continental United States. In addition, these
facilities have quality assurance review processes that verify that operational
errors are accurately reported. Specifically, when two aircraft come too close
together and lose required separation in airspace monitored by en route facilities:

   •   An automated system (the Operational Error Detection Program) will sound
       an audible alert.

   •   Each alert is automatically recorded in a log.

   •   Facility personnel review each alert to determine why the loss of separation
       occurred. This review includes examining voice and radar data, which
       allows the personnel to recreate the events that led to the incident; validate
       that a loss of separation occurred; and verify whether the controller’s
                                                                                        9


       actions caused the incident. If it is determined that an operational error did
       occur, the facility conducts an in-depth investigation of the incident.

   •   Quality assurance personnel conduct weekly audits of the alerts
       documented in the log to validate the accuracy of alerts that were
       determined to be false or not an operational error.

   •   Quality assurance personnel submit quarterly reports to the facility manager
       summarizing the results of the weekly audits.

In addition, FAA Headquarters evaluation staff ensure that the facilities are
conducting the weekly audits as required and also perform their own audits of the
alert logs during their facility evaluations.


FAA’s Reliance on Self-Reporting at TRACON and Tower
Facilities Does Not Ensure That Operational Errors Are
Accurately Reported
FAA needs additional controls to ensure the integrity of operational error reporting
at TRACON and tower facilities because there is no automated system to identify
when operational errors occur. At these facilities, FAA relies on facility
supervisors/managers and controllers to self-report operational errors. Once an
employee identifies that an operational error may have occurred, facility personnel
are required to fully investigate the incident. A key part of this investigation is to
review voice and radar data so that facility personnel can recreate the events that
led to the incident, validate that a loss of separation occurred, and verify whether
the controller’s actions caused the incident.

Although facility supervisors/managers and controllers are required to report when
operational errors occur, our review of FY 2003 data showed that 108 of the 501
operational errors, or 22 percent, occurring at TRACON and tower facilities were
identified as a result of reports from pilots, neighboring air traffic control facilities,
or other outside sources (e.g., hotline complaints, airport personnel, or airline
personnel). For example, on October 2, 2002, a high-severity operational error
involving two commercial aircraft occurred at a TRACON that was not reported
until the facility received a call from the pilot, 14 days after the incident occurred.
In contrast, only 24 of the 684 operational errors, or 4 percent, reported by
en route facilities were identified by outside sources. These statistics indicate that
FAA can not rely on a system that is based on facility personnel self-reporting
operational errors.

Over a 2-year period, the Office of Inspector General and FAA’s two safety
hotline centers received 160 complaints regarding loss of separation between
aircraft or unreported operational errors. Our review determined that 75 percent of
                                                                                    10


the complaints involved incidents at TRACON and tower facilities. More
recently, in May 2004, the Secretary of Transportation requested that we
investigate allegations of unreported serious operational errors at a TRACON
facility that were brought to the attention of the U.S. Office of Special Counsel.
Our investigation of this complaint identified operational errors that had not been
reported. Specifically:

•   Prior to our review, the facility had reported only two operational errors for the
    6-month period from January 1 through June 24, 2004.

•   During our investigation, we identified five operational errors that had not been
    previously reported. Investigators identified the errors, in part, by reviewing
    radar and voice data of operations covering a 2-month period (May and June
    2004). In addition, by evaluating documentation related to incidents that
    occurred in March 2002 and February 2004, we identified two more errors that
    facility personnel had previously determined were not operational errors.

•   Since our investigation was initiated, the facility has reported 16 operational
    errors in just over 1 month (from June 25 through August 1, 2004).

The Special Counsel’s request and the number of complaints received by the
Office of Inspector General and FAA hotline centers raise questions as to whether
all operational errors are reported by facility supervisors/managers and controllers.
These complaints also highlight the need for FAA to take a more proactive
approach in ensuring operational error reporting systems at all facilities have the
integrity to limit the occurrence of allegations that operational errors are being
covered up.

FAA actively encourages reporting and has taken adverse action against personnel
who intentionally covered up operational errors. FAA air traffic officials stated
that reports from pilots and other third parties act as a control to ensure operational
errors are reported, especially serious incidents. However, operational errors can
still go unreported. In May 2001, FAA Headquarters personnel performed a
special review of a TRACON/tower facility to determine the reasons for a
significant increase in operational errors at the facility. During this review,
evaluators identified four operational errors that had not been previously reported
by controllers, pilots, or other parties. The evaluators used the facility’s conflict
alert log as a basis for selecting radar and voice data for review. The log also
permitted the evaluators to target and select for review high-risk time periods
when errors were more likely to occur.

The facility’s conflict alert system provides controllers with an audible warning, or
alarm, when two aircraft are coming so close together that an operational error
could occur. Each potential incident is documented in the facility’s conflict alert
                                                                                  11


log but does not always represent an actual operational error. Unlike the
automated system used to identify operational errors at en route facilities, these
“conflict alerts” occur prior to a loss of separation between aircraft; therefore,
controllers have an opportunity to take action before an operational error occurs.
However, if controllers are not able to take action in a timely manner, an
operational error may still occur.

Since FAA evaluators do not normally review radar and voice data to identify
operational errors during facility reviews at TRACONs and towers, FAA has not
reported findings of this nature since 2001. However, the review illustrated that
this process was effective in identifying unreported operational errors.


FAA Has Systems That Could Aid in Improving the Accuracy of
Reporting Operational Errors at TRACON and Tower Facilities
According to FAA air traffic officials, it is not feasible to develop an automated
system to identify operational errors in TRACON and tower facilities. FAA stated
that aircraft that fly within TRACON and tower airspace are required to be
separated at varying distances (e.g. separation standards can vary from 3 to 5 miles
horizontally, depending on aircraft type and runway layout) and in a more
condensed area (i.e., within a 50-mile radius of the airport) than at en route
facilities. As a result of these factors, FAA asserts that it is unable to develop an
automated system with enough parameters to distinguish between the varying
distances at which aircraft are allowed to operate. This is in contrast to en route
facilities, where very few parameters have to be set to measure separation
standards in a large operating environment.

The purpose of our review was not to assess whether FAA could develop
automated systems that could identify operational errors at TRACON and tower
facilities. Instead, we are making recommendations that can provide FAA with
procedures that can be used in the near term. Specifically, TRACON and tower
facilities already have systems in place that could aid FAA in improving the
integrity of operational errors reporting.

Data from radar and voice recording systems at TRACON and tower facilities, if
periodically reviewed, could help FAA determine when unreported operational
errors occur. However, FAA has guidance in place that limits its use of radar
playback tools to identify operational errors. Radar playback tools are used by air
traffic personnel to determine the amount of separation that existed between
aircraft after an incident is reported. Currently, FAA’s guidance “Air Traffic
Quality Assurance” (FAA Order 7210.56C) limits FAA from “arbitrarily” using
radar playback tools as a primary source (or triggering event) for reporting an
operational error or initiating an investigation. Playback tools can be used only
                                                                                                                 12


after a suspected incident has been reported. Given the importance of accurately
reporting operational errors to measure the safety of the air traffic system, FAA
should take steps to rescind this provision in its air traffic quality assurance order.

TRACON Facilities. All TRACON facilities have playback tools that allow
them to easily review radar and voice data and recreate air traffic incidents. FAA
should require facility quality assurance staff6 to periodically review this radar and
voice data on a sample basis so the facilities can determine whether operational
errors are being accurately reported. There are several methods quality assurance
staff could use to sample radar and voice data to identify unreported operational
errors. For example, facility quality assurance staff could:

• Review a sample of conflict alert data during time periods when alerts occur.
  By sampling data from conflict alert logs, facility quality assurance staffs could
  target high-risk periods for periodic review and determine if unreported
  operational errors have occurred.

• Develop sampling methods that would target high-risk factors that contribute
  to operational errors. For example, based on operational error trend analyses,
  the quality assurance staff could develop sampling plans to review radar and
  voice data during peak traffic times when operational errors are more likely to
  occur.

• Sample other air traffic incidents that are recorded on the facility’s daily record
  of operations that were not identified as operational errors. FAA’s quality
  assurance order requires air traffic personnel to document all public inquiries
  or miscellaneous incidents on the facility’s daily records. Facility personnel
  are required to review these incidents to determine if an employee, a
  procedure, or equipment may have contributed to the incident and to record the
  conclusion of the review on the facility’s daily records. Facility quality
  assurance staff could sample incidents recorded on these records to verify that
  these incidents were not operational errors.

TRACON radar and conflict alert systems also provide coverage of air traffic
being monitored by controllers in tower facilities. Data from these systems have
been used in the past to identify operational errors that occurred in the air and
were caused by tower controllers. Therefore, FAA could sample TRACON radar
and conflict alert data to identify unreported operational errors that occur in the
air.

Tower Facilities. At tower facilities, most operational errors occur on the ground,
rather than in the air. For example, in FY 2003, 104 of the 142 operational errors
6
    All air traffic control facilities have staff responsible for the oversight of quality assurance at the facility.
    This oversight includes ensuring all operational errors are accurately reported and investigated.
                                                                                      13


reported by tower facilities occurred on the ground. FAA now has systems in
place or planned at 59 of its air traffic tower facilities that could be used to identify
operational errors that occur on the ground. Specifically, 34 tower facilities have
Airport Movement Area Safety Systems (AMASS), which provide FAA the
capability to review runway surface incidents after they happen to determine if
operational errors have occurred. AMASS was developed as an automated tool to
alert controllers of potential runway accidents and is used to verify when runway
incursions have occurred. Runway incursions are caused when the actions of a
pilot, vehicle, pedestrian, or controller allows an aircraft or vehicle to
inappropriately enter an active runway. Runway incursions caused by controllers
are also be classified as operational errors. While the overall number of runway
incursions has decreased, the number of runway incursions caused by controllers
(operational errors) increased from 72 in FY 2002 to 84 in FY 2003.

Although the parameters for AMASS are set to identify when a vehicle or aircraft
inappropriately enters an active runway, it could also be used to identify
unreported operational errors. The ground radar data are recorded and can be
reviewed to determine if controllers have allowed aircraft to come too close
together on the ground.

In addition, FAA plans to implement a surface radar and conflict alerting system
(Airport Surface Detection Equipment Model X or ASDE-X) at 25 additional
tower facilities. AMASS and ASDE-X will provide FAA automated means to
identify operational errors on the runway surface at towers. Therefore, FAA
should take advantage of this technology and establish procedures (similar to the
audit process used at en route facilities) that require tower facilities with AMASS
or ASDE-X to conduct random reviews of radar and voice data to ensure that all
operational errors are reported.

Evaluation of Air Traffic Control Facilities. FAA’s Air Traffic Office of Safety
Evaluations conducts full-facility evaluations, no-notice reviews, and special
reviews of all air traffic control facilities. The reviews evaluate whether facilities
are complying with air traffic control procedures and are operating safely. During
reviews at en route facilities, air traffic evaluation personnel verify that these
facilities are conducting required weekly audits. In addition, these evaluators
conduct their own audits of the facilities’ alert logs. Once FAA establishes audit
procedures that require TRACON and tower facilities to randomly audit radar and
voice data, FAA’s evaluation group should be required to review and test audit
records at TRACON and tower facilities to ensure these facilities are conducting
periodic audits of radar and voice data.
                                                                                  14


RECOMMENDATIONS
To strengthen the integrity of the reporting of operational errors at TRACON and
tower facilities, we recommend that FAA:

   1. Rescind provisions in FAA’s Order 7210.56C, “Air Traffic Quality
      Assurance,” that prevent FAA from using playback tools to identify
      operational errors.

   2. Establish internal audit procedures that require quality assurance staff at
      TRACONs and towers that have AMASS or ASDE-X to periodically
      review a sample of radar and voice data to assess whether operational errors
      are being fully reported. Sampling methods should (a) include periods
      when TRACON or AMASS/ASDE-X alerts occur, (b) target high-risk
      factors (e.g., peak traffic times), and (c) take into account other air traffic
      incidents that were not identified as operational errors.

   3. Require the air traffic evaluation staff to review and test audit records at
      TRACON and tower facilities to ensure these facilities are in fact
      conducting periodic audits of radar and voice data.

MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to FAA on August 20, 2004. On
September 15, 2004, FAA provided written comments. FAA concurred with our
recommendations, but its proposed actions were not clear or specific on how or
when the Agency would make the necessary changes to address the intent of our
recommendations. A summary of FAA’s comments and our analyses follow.

Recommendation 1: Concur. FAA stated that current orders allow the use of
playback tools to identify facility operational errors. However, FAA recognized
the need to improve its guidance and proposed to review existing orders to ensure
the inclusion of audit guidance within national regulations.

OIG Response: FAA’s current guidance places limits on its use of playback tools
and prevents FAA from using these tools to identify operational errors without a
triggering event or indication that an error has already occurred. In our opinion,
FAA needs to rescind this provision or otherwise modify it so that it is clear
playback tools can be used to conduct random audits that will ensure all
operational errors are reported. Accordingly, FAA needs to clarify the specific
action it plans to take to address this recommendation.
                                                                                 15


Recommendation 2: Concur. FAA indicated that control and audit functions
exist but acknowledged that there was a need to improve audit control
requirements in its national orders. FAA agreed to implement management
controls that will enhance audit functions within TRACON and tower facilities
and formalize procedures and requirements in its national orders.

OIG Response: Although FAA indicated it will implement management controls
that will enhance audit functions at TRACON and towers, it is not clear exactly
what management controls it plans to implement or if FAA plans to require these
facilities to periodically review a sample of radar and voice data to assess whether
operational errors are being fully reported. FAA’s Air Traffic Quality Assurance
Order currently only requires en route facilities to conduct audits and does not
contain any audit requirements for TRACONs and towers to conduct audits of
radar and voice data for identifying unreported operational errors. Therefore,
FAA’s response does not specifically address our recommendation and further
clarification is needed on what FAA plans to do.

Recommendation 3: Concur. FAA proposed to review and ensure that its air
traffic evaluations guidance provides for secondary oversight of facility audits.

OIG Response: The intent of our recommendation was for the air traffic
evaluation staff to review and test TRACON and tower audits of radar and voice
data to ensure that substantially all operational errors are reported. Unless those
facilities conduct audits, which is uncertain based on FAA’s proposed actions,
FAA’s reply is considered nonresponsive. FAA needs to provide more details to
clarify the specific actions it plans to take to ensure its air traffic evaluations
guidance provides for secondary oversight of facility audits.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
FAA provide additional information that more clearly identifies the specific
actions FAA plans to take to address each of the three recommendations. We also
request that you provide a timeframe for implementing intended actions for all
recommendations.      Please provide your response within 30 days. The
recommendations will remain open until we receive your response.

We appreciate the courtesy and cooperation of FAA representatives during this
audit. If you have any questions, please contact me at (202) 366-1992 or David
Dobbs, Assistant Inspector General for Aviation Audits, at (202) 366-0500.

                                         #
                                                                                                   16




EXHIBIT A. SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
The audit was conducted between March and July 2004 and in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States. Our review included evaluating FAA procedures for reporting
operational errors at en route, TRACON, and tower air traffic control facilities. In
addition, we met with FAA Headquarters air traffic personnel to discuss the
accuracy of operational error reporting and alternative methods for verifying the
accuracy of error reporting at TRACON and tower facilities. We also reviewed
FAA reports on operational error data for FY 2003 and the first 8 months of FY
2004. We did not test the accuracy of these reports, but did evaluate the controls
used to record these reports into FAA databases. Finally, we evaluated hotline
complaint reports for the 2-year period from April 24, 2002, through May 3, 2004.

In December 20007, we reported that operational errors may be understated
because of FAA’s reliance on controllers to self-report these errors. We found that
adequate documentation was not always available to confirm whether operational
errors occurred because FAA did not retain air traffic radar and voice recording
tapes past 15 days. We recommended that FAA extend the retention period for air
traffic radar and voice recording tapes to 45 days. FAA partially concurred with
our recommendation, indicating that retaining all tapes for 45 days would create a
storage problem. Instead, FAA agreed to retain radar and voice tapes of all known
or suspected air traffic incidents for 45 days.




7
    OIG Report Number AV-2001-011, “Actions To Reduce Operational Errors and Deviations Have Not
    Been Effective,” December 15, 2000.



Exhibit A. Scope, Methodology, and Prior Audit Coverage
                                                                                             17




           APPENDIX. MANAGEMENT COMMENTS


                                                      Memorandum
Subject:   INFORMATION: Draft Report on Controls                    Date:    Sep 15 2004
           Over the Reporting of Operational Errors
           Federal Aviation Administration
  From:    Assistant Administrator for Financial Services        Reply to
                                                                 Attn. of:
             and Chief Financial Officer

    To:    Assistant Inspector General for Aviation Audits

           As requested in your memorandum dated August 20, the following is the Federal
           Aviation Administration’s (FAA) response to each recommendation in the subject
           draft report.

           Recommendation 1: Rescind provisions in FAA’s Air Traffic Quality Assurance
           Order 7210.56C that prevent FAA from using playback tools to identify
           operational errors.

           FAA Response: Concur. Current orders allow the use of playback tools to
           identify facility operational errors. The Air Traffic Organization (ATO) recognizes
           the need to improve guidance regarding audit procedures and will review FAA
           National Order 7210.56 (Air Traffic Quality Assurance Order) to ensure the
           inclusion of audit guidance within national regulations.

           Recommendation 2: Establish internal audit procedures that require quality
           assurance staff at terminal radar approach controls (TRACON) and towers that
           have AMASS or ASDE-X to periodically review a sample of radar and voice data
           to assess whether operational errors are being fully reported. Sampling methods
           should (a) include periods when TRACON or AMASS/ASDE-X alerts occur, (b)
           target high-risk factors (e.g., peak traffic times), and (c) take into account other
           air traffic incidents that were not identified as operational errors.

           FAA Response: Concur. Control and audit functions exist, however the ATO
           acknowledges the need to improve and identify, within national orders, audit

           Appendix. Management Comments
                                                                                18


control requirements. The ATO will implement management controls that will
enhance audit functions within Air Traffic TRACON and tower facilities and
formalize procedures and requirements.

Recommendation 3: Require the air traffic evaluation staff to review and test
audit records at TRACON and tower facilities to ensure these facilities are in fact
conducting periodic audits of radar and voice data.

FAA Response: Concur. The ATO will review and ensure National Order
7110.10 (Air Traffic Safety Evaluations Order) provides for secondary oversight
of the facility audits.




Ramesh K. Punwani




Appendix. Management Comments
